In the SUPREME COURT of THE UNITED STATES OF AMERICA
JO ELLEN MARY CROSSETT
Petitioner
V
EMMET COUNTY et al.,
Respondent

PROOF OF SERVICE
Ms. Crossett swears she sent to the two addresses
below, from USPS in Petoskey, Michigan, Emmet County her REPLY
BRIEF TO OPPOSITION BRIEF ON PETITION FOR A WRIT OF
CERTIORARI. on May 20, 2021
Clerk
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543

Douglas J. Curlew
Counsel for Respondents
17436 College parkway
Livonia, MI 48512

eil,-“Letb

edgiun trn
DATE: May 20, 2021

Jo Ellen Mary Crossett
pro se
P.O. Box 142
Harbor Springs, MI 49740
PH (231)758-6049

RECEIVED
MAY 2 4 2021

1ETNIrdOEPIZRen

